App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

PAMELA SMITH,
Plaintiff - Appellant,
v.

No. 20-5042
(D.C. No. 4:20-CVPACERMONITOR, LLC;
00126-CVE-FHM)
OKLAHOMA ATTORNEY
(N.D. Okla.)
GENERAL; TULSA COUNTY
DISTRICT ATTORNEY,
Defendants - Appellees.

ORDER AND JUDGMENT*
(Filed Sep. 18, 2020)
Before LUCERO, BACHARACH, and MORITZ,
Circuit Judges.

* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not ma­
terially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore or­
dered submitted without oral argument. This order and judgment
is not binding precedent except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, how­
ever, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

App. 2
Pamela Smith appeals the district court’s dismis­
sal of her constitutional and state law claims for lack
of subject-matter jurisdiction. Exercising jurisdiction
under 28 U.S.C. § 1291, we affirm.
I
In January 2000, Smith filed a lawsuit for claims
arising from a sexual assault she allegedly suffered at
the hands of a state employee while she was incarcer­
ated at the Tulsa Community Correction Center. That
case eventually resulted in a jury verdict against
Smith. See Smith v. Cochran. 182 F. App’x 854 (10th
Cir. 2006).
Years later, in May 2019, Smith filed suit against
the Tulsa County District Attorney’s Office, the Okla­
homa Department of Public Safety, and the Oklahoma
Attorney General, arguing the defendants failed to su­
pervise and investigate her alleged assailant. Smith v.
Oklahoma ex rel. Tulsa Cntv. Dist. Att’v Off.. 798
F. App’x 319, 320 (10th Cir. 2020) (“the Western Dis­
trict case”). The defendants moved to dismiss and cer­
tified they had sent Smith a copy of their motion. Id. at
321. Smith denied having received the motion, so the
district court ordered defendants to send her a second
copy. Id- When Smith still failed to respond to the mo­
tion, the district court deemed the motion confessed.
The district court also granted the motion based on
other grounds, including timeliness and immunity Id.
This court affirmed the dismissal on the grounds of
timeliness and immunity but declined to address the

App. 3
district court’s ruling that the motion to dismiss had
been confessed. Id- at 322.
In December 2019, Smith initiated this lawsuit in
the Southern District of New York and the case was
subsequently transferred to the Northern District of
Oklahoma. The substance of Smith’s current claim is
that the defendants violated her constitutional right to
due process by conspiring to thwart her receipt and re­
view of the motion to dismiss that was then granted
against her. Smith also asserts a defamation claim
against two of the defendants.
The district court dismissed the complaint sua
sponte for lack of subject-matter jurisdiction. Because
Smith’s constitutional claims were “meritless” and
lacked any factual support, the district court concluded
it had no subject-matter jurisdiction to consider them.1
II
Federal Rule of Civil Procedure 12(b)(1) “allows a
court to dismiss a complaint for lack of subject matter
jurisdiction. If the district court did so without taking
evidence, as the court did here, our review is de novo.”
Safe Streets All, v. Hickenlooper. 859 F.3d 865, 877
(10th Cir. 2017) (quotation omitted). In the absence of
evidence-taking, both we and the district court “must
accept the allegations in the complaint as true.” Id- at
1 The District Court dismissed Smith’s state law defamation
claim on res judicata grounds. Alternatively, the district court de­
clined to exercise supplemental jurisdiction over a state law claim
after the federal claims were dismissed.

App. 4
878. A federal court may lack subject-matter jurisdic­
tion if a federal claim is “so insubstantial, implausible,
... or otherwise completely devoid of merit as not to
involve a federal controversy.” Steel Co. v. Citizens for
a Better Env’t. 523 U.S. 83, 89 (1998) (quotation omit­
ted). The party asserting subject-matter jurisdiction
bears the burden of establishing it. Safe Streets 859
F.3d at 878.
Smith’s claims are decidedly implausible. Her
claim that the defendants conspired to hide the motion
to dismiss does not square with the clear appearance
of the motion to dismiss on the docket report and the
availability of the motion from the clerk’s office. It is
also hard to discern what motivation the defendants
would have had to hide their motion to dismiss from
Smith, given that the district court’s dismissal in the
Western District case was easily affirmed on appeal.
Faced with the implausibility of her claims, Smith
offers only scant evidence. She notes that the defend­
ants did not file a certificate of mailing as they were
instructed to do by the district court, but instead only
certified that they had re-sent the motion to dismiss.
Smith also argues that the Oklahoma Attorney Gen­
eral Office’s claim that it sent her a second copy of the
motion to dismiss three days before the district court
ordered it to do so indicates deceit—notwithstanding
the Oklahoma Attorney General Office’s explanation
that it sent a new copy as soon as it was notified that
Smith had not received the first copy. Neither of these
facts overcomes the facial implausibility of Smith’s
claims.

App. 5
Moreover, Smith failed to allege in her complaint
or explain on appeal how the defendants’ purported
failure to provide her with a copy of the motion to dis­
miss violated her due process right. Such an explana­
tion would be difficult, given that Smith knew of the
motion to dismiss more than a month before the dis­
trict court ruled on it and that the district court’s grant
of the motion was affirmed on grounds unrelated to her
failure to respond. Lacking connective tissue between
the facts Smith alleges and the constitutional rights
she contends were violated, we hold Smith has not met
her burden of establishing subject-matter jurisdiction.2
Ill
AFFIRMED.
Entered for the Court
Carlos F. Lucero
Circuit Judge

2 Because Smith’s federal claims cannot be considered, the
district court operated within its discretion by declining to exer­
cise supplemental jurisdiction to consider Smith’s defamation
claim 28 U.S.C. § 1367(c)(3).

App. 6
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
PAMELA SMITH,.
Plaintiff,
v.
PACERMONITOR, LLC,
OKLAHOMA ATTORNEY
GENERAL, and TULSA
COUNTY DISTRICT
ATTORNEY,
Defendants.

)
)
)
)

) Case No. 20-CV) 0126-CVE-FHM
)
)
)
)
)

OPINION AND ORDER
(Filed Apr. 3, 2020)
Now before the Court is plaintiff’s pro se com­
plaint (Dkt. # 1). Plaintiff filed this case in the United
States District Court for the Southern District of New
York alleging claims relating to a conspiracy to deprive
her of procedural due process in a separate lawsuit.
Plaintiff also claims that defendants are engaged in a
conspiracy to defame her in an attempt to discredit her
allegations of sexual assault that date back approxi­
mately 20 years. The Southern District of New York
transferred the case to this Court, and the Court has
reviewed the complaint to determine if the Court has
subject matter jurisdiction over plaintiff’s claims.
In January 2000, plaintiff filed a lawsuit alleging
that she was the victim of sexual assault while she was

App. 7
an inmate in the Tulsa Community Correction Center.
Smith v. Department of Public Safety et al.. 00-CV-035TED-saj (N.D. Okla.). The case went to trial on plain­
tiff’s claims against one defendant, Don Cochran, and
the jury found in favor of Cochran. Dkt. # 91. Plaintiffappealed the adverse verdict, and the Tenth Circuit
Court of Appeals rejected plaintiff’s argument for a
new trial. Dkt. # 110. In 2007, the United States Su­
preme Court denied plaintiff’s petition for a writ of cer­
tiorari and it appeared that the case was closed. Dkt.
# 112. In May 2019, plaintiff filed a new case in the
United States District Court for the Western District
of Oklahoma against the Tulsa County District Attor­
ney’s Office, the Oklahoma Department of Public
Safety, and the Oklahoma Attorney General. Smith v.
Tulsa County District Attorney Office. 19-CV-426-D
(W.D. Okla.). Plaintiff was not represented by counsel.
Plaintiff reasserted her allegations from her prior law­
suit and she alleged that the defendants failed to fully
investigate her allegations of sexual assault for the
purpose of prosecuting the alleged perpetrator. De­
fendants filed a motion to dismiss and plaintiff claimed
that she was not served with a copy of the motion. The
court directed defendants to send a copy of the motion
to dismiss to the address listed on the docket sheet and
extended plaintif f’s time to respond to the motion. Dkt.
# 7. Plaintiff failed to file a response and the court dis­
missed plaintiff’s claims with prejudice. The Tenth Cir­
cuit affirmed the dismissal of plaintiff’s claims on the
basis that plaintiff’s claims were untimely and defend­
ants were immune from suit. Plaintiff alleges that the
defendants conspired to deprive her of procedural due

App. 8
process in her Western District case by falsely repre­
senting that they had served her with a copy of the mo­
tion to dismiss. Dkt. # 1, at 11-17. She also claims that
the Tulsa County District Attorney used his office to
undermine or discredit plaintiff’s allegations of rape
and sexual assault. Id. at 18. Plaintiff seeks $7 million
in compensatory damages and $3.3 million in punitive
damages.
Federal courts are courts of limited jurisdiction,
and there is a presumption against the exercise of fed­
eral jurisdiction. Merida Delgado v. Gonzales. 428 F.3d
916, 919 (10th Cir. 2005); Penteco Corp. Ltd. Partner­
ship-1985A v. Union Gas System. Inc.. 929 F.2d 1519,
1521 (10th Cir. 1991). The party invoking federal juris­
diction has the burden to allege jurisdictional facts
demonstrating the presence of federal subject matter
jurisdiction. McNutt v. General Motors Acceptance
Corp. of Indiana. Inc.. 298 U.S. 178, 182 (1930 (“It is
incumbent upon the plaintiff property to allege the ju­
risdictional facts, according to the nature of the case.”);
Montova v. Chao. 296 F:3d 952, 955 (10th Cir. 2002)
(“The burden of establishing Subject-matter jurisdic­
tion is on the party asserting jurisdiction.”). The Court
has an obligation to consider whether subject matter
jurisdiction exists, even if the parties have not raised
the issue. The Tenth Circuit has stated that “ [fjederal
courts “have an independent obligation to’ determine
whether subject-matter jurisdiction exists, even in the
absence of a challenge from any party,’ and thus a court
may sua sponte raise the question of whether there is
subject matter jurisdiction ‘at any stage in the

App. 9
litigation.’ ” Image Software. Inc, v. Reynolds & Reyn­
olds Co.. 459 F.3d 1044,1048 (10th Cir. 2006).
A court reviewing a pro se plaintiff’s complaint
must broadly construe the allegations of the complaint
to determine if the plaintiff can state a claim upon
which relief can be granted. Erickson v. Pardus. 551
U.S. 89, 94 (2007); Haines v. Kerner. 404 U.S. 519, 520
(1972). The generous construction to be given a pro se
litigant’s allegations “does not relieve the plaintiff of
the burden of alleging sufficient facts on which a rec­
ognized legal claim could be based.” Hall v. Bellmon.
935 F.2d 1106,1110 (10th Cir. 1991). Notwithstanding
a pro se plaintiff’s various mistakes or misunderstand­
ings of legal doctrines or procedural requirements, “if
a court can reasonably read the pleadings to state a
valid claim on which the plaintiff could prevail, it
should do so. .. .” Id- A reviewing court need not accept
“mere conclusions characterizing pleaded facts.”
Brvson v. City of Edmond. 905 F.2d 1386, 1390 (10th
Cir. 1990); see also Bell Atlantic Corp. v. Twomblv. 550
US. 544, 555 (2007) (“While a complaint attacked by a
Rule 12(b)(6) motion to dismiss does not need detailed
factual allegations, a plaintiff’s obligation to provide
the grounds of [her] entitlement to relief requires more
than labels and conclusions, and a formulaic recitation
of the elements of a cause of action will not do.”) (quo­
tation marks and citations omitted). The court “will not
supply additional factual allegations to round out a
plaintiff’s, complaint or construct a legal theory on a
plaintiff’s behalf.” Whitney v. New Mexico. 113 F.3d
1170,1173-74 (10th Cir. 1997).

App. 10
Plaintiff’s claims under 42 U.S.C. §§ 1983 and
1985 are primarily based on her allegations that the
defendants filed a motion to dismiss her Western Dis­
trict case, but the motion was filed secretly and not
placed on the docket sheet. Dkt. # 1, at 12. She claims
that defendants engaged in a conspiracy to make it ap­
pear that she had been served with a copy of the mo­
tion to dismiss, but she alleges that her case was
dismissed without the motion being served on her. Id.
at 11 The Court has reviewed the docket sheet from
plaintiff’s. Western District case and it clearly shows
that the defendants filed a motion to dismiss on June
6,2019. Smith v. Tulsa County District Attorney Office.
19-CV-426-D, Dkt. # 4 (W.D. Okla. June 6,2019). Plain­
tiff was clearly aware of this motion to dismiss, because
she sent a letter to the court clerk stating that knew of
the motion to dismiss and had not received a copy of
the motion. Smith v, Tulsa Countv District Attorney
Office. 19-CV-426-D, Dkt. # 6 (W.D. Okla. June 21,
2019). In response to plaintiff’s letter, the court ex­
tended plaintiff’s deadline to respond to the motion to
dismiss and directed defendants to mail another copy
of the motion to plaintiff. Smith v. Tulsa County Dis­
trict Attorney Office. 19-CV-I-26-D, Dkt. # 7 (N.D. Okla.
June 21,2019). Defendants filed a certificate of service
stating that they had complied with the order and
plaintiff still failed to file a response to the motion.
The Court finds that plaintiff’s claims based an al­
leged denial of procedural due process are meritless.
Plaintiff alleges that defendants conspired to deprive
her of notice of the motion to dismiss, but the docket

App. 11
sheet shows that the motion was placed on the public
docket sheet. Even if there was such a conspiracy, it
was wholly unsuccessful and she knew about the mo­
tion to dismiss for more than a month before it was
granted. As noted by the Tenth Circuit plaintiff could
have gone to the court clerk’s office and personally re­
quested a copy of the motion to dismiss, even if it had
not been served on her. Smith v. Oklahoma ex rel. Tulsa
Countv District Attorney Office.__ F. App’x
, 2020
WL 260951 *1 n.2 (10th Cir. Jan. 17, 2020). In other
words, there was nothing secret about defendants’ mo­
tion to dismiss and plaintiff could have personally re­
quested a copy of the motion from the court clerk’s
office at any time. The key requirement of procedural
due process in the context of judicial proceedings is
that a party receive reasonable notice and an oppor­
tunity to be heard. In re C.W. Mining Co.. 625 F.3d
1240, 1245 (10th Cir. 2010). Plaintiff admits that she
had notice that the motion to dismiss was filed and she
was given additional time to respond to the motion af­
ter she complained that she did not receive a copy of it.
Plaintiff has not alleged facts suggesting that a viola­
tion of her right to procedural due process occurred,
and her claims based on denial of her right to due pro­
cess or conspiracy to deprive her of procedural due pro­
cess are dismissed. The-Court also notes that the
Western District and the Tenth Circuit found that
plaintiff’s underlying claims were untimely and that
defendants were immune from plaintiff’s claims, and
plaintiff has not suggested that she had colorable ar­
guments which could have prevented the dismissal of
her claims. Plaintiff also alleges a defamation claim

App. 12
against the Tulsa County District Attorney, but she
made similar allegations in her Western District case
and those claims were dismissed. It appears that she
is seeking to relitigate a claim that has already been
dismissed, and her defamation claim is also subject to
dismissal.1
IT IS THEREFORE ORDERED that plain­
tiff’s complaint (Dkt. # 1) is dismissed. A separate
judgment of dismissal is entered herewith.
DATED this 3rd day of April, 2020.
/s/ Claire V. Eagan
CLAIRE V. EAGAN
UNITED STATES
DISTRICT JUDGE

1 The Court also notes that subject matter jurisdiction is
premised on federal question jurisdiction, and her defamation
claim is based on state law. The Court would decline to exercise
supplemental jurisdiction over this claim, even if she could state
a colorable defamation claim, because there are no federal claims
remaining to be adjudicated.

App. 13
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
PAMELA SMITH,.

)
)
)
)

Plaintiff,
v.
PACERMONITOR, LLC,
OKLAHOMA ATTORNEY
GENERAL, and TULSA
COUNTY DISTRICT
ATTORNEY,
Defendants.

) Case No. 20-CV0126-CVE-FHM

)
)
)
)
)
)

JUDGMENT OF DISMISSAL
(Filed Apr. 3, 2020)
This matter has come before the Court for consid­
eration and an Opinion and Order (Dkt. # 14) dismiss­
ing plaintiff s case for lack of subject matter
jurisdiction has been entered. A judgment of dismissal
of plaintiff s claims is hereby entered.
IT IS SO ORDERED this 3rd day of April, 2020.
/s/ Claire V. Eagan
CLAIRE V. EAGAN
UNITED STATES
DISTRICT JUDGE

App. 14
May 22, 2005
Dexter Winbish
Southern Christian Leadership Conference
591-A Edgewood Avenue
Atlanta GA 30312
RE: Pamela Smith
Dear Mr. Winbish:
This letter is being written at the request of the above
referenced individual. Ms. Smith was a patient of mine
from September 1998 to August 1999. During this
time, she was incarcerated at the Eddie Warrior Cor­
rectional Center in Taft, Oklahoma. I worked with her
there in my capacity as a psychology intent She has
asked me to write a narrative of my involvement in her
case, and that is the purpose of this letter. I am enclos­
ing a summary of my work with her that was submit­
ted to my supervisor at the end of my internship in
1999. This same summary is also included in her Ok­
lahoma Department of Corrections file.
I am not sure whether Ms. Smith has explained the
circumstances of her current litigation to you, so I will
simply say that she was raped by a state employee
while she was an inmate in the Oklahoma correctional
system. Any other details of this event that you may
need the can be obtained from her.
When I first met with Ms. Smith, she was exhibiting
numerous symptoms of Posttraumatic Stress Disorder.
Among these symptoms were intrusive distressing
recollections of her experience, intense psychological

App. 15
distress at exposure to external cues, feelings of de­
tachment and estrangement, restricted range of affect,
irritability and outbursts of anger, difficulty concen­
trating, hypervigilance, and exaggerated startle re­
sponse. Throughout the course of her treatment, she
would experience almost all of the symptoms of this
disorder, discussed these symptoms with my supervi­
sor during the course of Ms. Smith’s treatment, and he
was definitely in agreement that the diagnosis of Posttraumatic Stress disorder was appropriate.
As her treatment progressed, her symptoms improve
greatly, but she was somewhat re-traumatized by
events that occurred during the investigation of her
case. One very prominent example of this was when
she was shown a salt shaker by one of the investigators
in her case. This was a salt shaker with which she had
been assaulted by the state employee, and the feelings
that were aroused by this exposure were extremely
distressing to her. This is exactly the type of occurrence
that one would expect in a case of posttraumatic stress
disorder.
Throughout the year that I worked with Ms. Smith,
she continued to improve both because of her treat­
ment and because of the fact that she seemed to feel
empowered by pursuing the investigation into her
case. I have had only limited contact with Ms. Smith
since I finished my internship and since she has been
released from incarceration. I am now currently a li­
censed psychologist in the State of Kansas, and I have
participated as much as possible in her litigation to
this point. As her therapist, I believe that I have done

App. 16
everything I can to assist her, but as a concerned citi­
zen, I remain willing to do whatever I can to help cor­
rect what I believe to be a grave injustice. If you have
questions that I may be able to answer, or if you need
any additional information, please to not hesitate to
contact me.
Sincerely,
Stephen Hoyer, Ph.D.
801 Spruce
Frontenac, KS 66763
(620) 232-1962
hoyer@pittstate.edu

App. 17
Case Summary for Pamela Smith #159046
Prepared June 24,1999
Ms. Smith was first seen by this intern on 9/29/98. This
visit was precipitated by a phone call from Ms. Smith’s
case manager who stated that Ms. Smith had been
sexually assaulted and was very distressed. During
this initial visit, Ms. Smith was indeed very dis­
tressed, crying constantly and almost never even
looking at this intern, instead sitting with her back
facing the intern and looking out the window. She re­
lated that she had been coerced into a sexual abuse
with a Department of Public Safety officer while she
had been incarcerated at the Community Correctional
Center in Tulsa. She stated that this abuse had lasted
for approximately nine months and had ended when
she was transferred to EWCC. The symptoms she was
experiencing at that time were entirely consistent with
those that would be expected of a victim of a sexual
assault. Primary intervention at that time was to en­
courage Ms. Smith to tell her story and to reassure her
that she was taking the proper steps in bringing this
out into the open.
Ms. Smith was seen again the following day and has
been seen a total of eighteen times over the past nine
months including the initial visit. During the first sev­
eral sessions, Ms. Smith dealt with the feelings associ­
ated with making her story public and the great
difficulties she was having in telling her family about
the situation. Her feelings of sadness and despair were
clearly improving during this time, but as sessions
continued into November and December of 1998, Ms.

App. 18
Smith began experiencing increasing feelings of anger
because she felt the investigation into her case was not
being properly handled. During this time period, Ms.
Smith stated to this intern that she felt she could not
deal with her deep feelings about what had happened
to her until the investigation was resolved. Again, this
anger was consistent with what would be expected in
a sexual assault case, and it was discussed with Ms.
Smith as such. Primary intervention at that time be­
came providing Ms. Smith with emotional support as
she contacted attorneys and public officials in an effort
to move the investigation along.
It has only been in the most recent sessions that Ms.
Smith has come to understand that her vigorous pur­
suit of her investigation has perhaps impeded her from
dealing -with the more emotional issues associated
with her experiences, and she has begun to focus more
attention on those issues. This would appear to repre­
sent appropriate therapeutic progress and to indicate
that Ms. Smith is doing what she needs to be doing to
effectively deal with her situation. Major focus of ther­
apy at the present time is to help Ms. Smith identify
the emotional issues that need attention and make a
plan as to how those issues should be approached in
therapy.
Throughout the course of therapy, Ms. Smith has been
very cooperative and has shown appropriate dedica­
tion to the therapeutic process. Her progress has oc­
curred at a pace and to a degree that is quite typical
for someone who has been a victim of the type of as­
sault she has endured. At the present time there is no

App. 19
reason to expect that this progress will not continue or
that Ms. Smith would not be able, at some point, to put
her experiences behind her.
Stephen Hoyer, Ph.D.
Psychology Intern

Terry Vinsant, Ph.D.
Licensed Psychologist

App. 20
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
PAMELA SMITH,
Plaintiff, Pro Se

Civil Action No:
19 CV 11849

v.

COMPLAINT
PACERMONITOR, LLC;
JURY TRIAL
OKLAHOMA ATTORNEY
GENERAL; TULSA COUNTY DEMAND
DISTRICT ATTORNEY.
Defendants.
NATURE OF THE ACTION
(Filed Dec. 26, 2019)
This is a case brought pursuant to the provisions
of the Civil Rights Act of 1871, 42 U.S.C. §1983 and 42
U.S.C. §1985 to correct unlawful deprivation of rights
and conspiracy to interfere with rights, intentional in­
fliction of emotional distress, disparate treatment based
on race, and defamation leading to the unconstitu­
tional dismissal of the Complaint by Plaintiff Pamela
Smith (“Ms. Smith” or “Plaintiff”) in Smith v. Tulsa
County District Attorney, Case No. CIV-19-426D (W.D.
Okla. July 26,2019), obstruction ofjustice and conspir­
acy to interfere with the judicial process in the Plain­
tiff’s appeal currently before the United States Court
of Appeal for the Tenth Circuit in Smith v. Tulsa
County District Attorney, Case No. 19-6123 (hereinaf­
ter “Smith v. Tulsa DA”), and interfering with the judi­
cial process in Plaintiff’s Relief From Judgment action

App. 21
pursuant to Rule 60 of the Federal Rules of Civil Pro­
cedure currently before the United States District
Court of Oklahoma for the Northern District in Smith
v. Dep’t Pub. Safety, Case No. CIV-00-35-C,.J. (N.D.
Okla. March 1, 2004). The Plaintiff who has been ad­
versely affected by deprivation of rights, intentional
infliction of emotional distress, ongoing denial of Con­
stitutional Due Process rights under the Fourteenth
Amendment, and twenty years of continuing conspir­
acy to interfere with rights, most recently perpetrated
by PacerMonitor, LLC (“PacerMonitor” or “DefendantPacerMonitor”) and the Oklahoma Attorney General
(“Oklahoma AG” or “Defendant-OklaAG”), as well as the
ongoing public smear campaign by the Tulsa County
District Attorney (“Tulsa DA” or “Defendant-TulsaDA”)
and Defendant-OklaAG to discredit and present Ms.
Smith in a false light resulting in physical suffering,
significant mental anguish, and damaging to Ms
Smith’s public reputation.
JURISDICTION AND VENUE
1. Jurisdiction of this Court is invoked pursuant
to 28 U.S.C. §§ 1331 and 1343.
2. This action is authorized and instituted pur­
suant to 42 U.S.C. §1983 and 42 U.S.C. §1985.
3. The actions, deprivation of rights, obstruction
of justice, and conspiracy to interfere with rights com­
menced within the jurisdiction of the United States
District Court for the Southern District of New York.

App. 22
4. Venue in this district is proper pursuant to 28
U.S.C. § 1391(b).
PARTIES
5. Plaintiff, Pamela Smith, is a former customer
of Defendant-PacerMonitor and the Plaintiff in two
civil actions against Defendant-OklaAG. Ms. Smith’s
address is P.O. Box 470261, Tulsa, Oklahoma 74147.
Defendant-PacerMonitor
6. Defendant-PacerMonitor is a Covenant Re­
view, LLC Company registered to conduct business in
the State of New York. Defendant-PacerMonitor’s place
of business in New York is 25 West 45th Street, Suite
1000, New York, NY 10036.
Defendant-OklaAG
7. The Oklahoma Attorney General is the State
Attorney General for state of Oklahoma. The attorney
general serves as the chief legal and law enforcement
officer of the state of Oklahoma. Defendant-OklaAG’s
place of business in Oklahoma is 313 NE 21st Street,
Oklahoma City, OK 73105.
Defendant-TulsaDA
8. The Tulsa County District Attorney is the
chief prosecutor for the County of Tulsa in the state of
Oklahoma. Defendant-TulsaDA’s place of business in

App. 23
Oklahoma is 500 South Denver Ave., Suite 900, Tulsa,
Oklahoma 74103.
9. Between the dates of May 09, 2019 to Present,
Plaintiff has been engaged in litigation with DefendantOklaAG and Defendant-TulsaDA; the causes of action
herein arose during this time period, and the alleged
illegal conduct occurred not only within this timeframe
but back to the disappearance of evidence related to
Plaintiff being raped by instrumentation, documented
on a Defendant-TulsaDA form dated March 1999.
FACTS RELATING TO THE PATTERN OF
DEPRIVATION OF RIGHTS. CONSPIRACY TO
INTERFERE WITH RIGHTS. AND DEFAMATION
10. On May 9, 2019, Plaintiff filed a civil action
in the United States District Court for the Western
District of Oklahoma against Defendant-OklaAG,
Defendant-TulsaDA, and the Oklahoma Department
of Public Safety for violation of 42 U.S.C. § 1983 Viola­
tion of Civil Rights Under Color of State Law, Prosecu­
torial Misconduct, Intentional Infliction of Emotional
Distress, and Negligence based on new evidence re­
lated to Smith v. Dep’t Pub. Safety, Case No. CIV-0035-C,.J. (N.D. Okla. March 1, 2004) corroborating
Plaintiff’s claim of being denied the constitutionally
protected right to full and fair opportunity to litigate.
11. The new evidence also implicated the defen­
dants in the case in widespread corruption and coverup regarding the disappearance of a glass salt shaker,

App. 24
documented on a Defendant-TulsaDA form, as the in­
strument used to sexually assault Ms. Smith with.
12. On June 6, 2019, Defendant-OklaAG, by ex
parte communication, filed a motion to dismiss the
Plaintiff’s complaint with the U.S. District Court of
Oklahoma Western District.
13. On June 21,2019, Plaintiff submitted a letter
to the U.S. District Court of Oklahoma Western Dis­
trict Clerk’s office notifying the Court that she learned
Defendant-OklaAG had filed a motion to dismiss her
complaint from watching the news however had not re­
ceived the motion from Defendant-OklaAG in accord­
ance to Rule 12 of the Federal Rules of Civil Procedure.
14. On Monday, June 24,2019, U.S. District Judge
DeGuisti issued an Order instructing DefendantOklaAG to send the Plaintiff a copy of the Motion to
Dismiss and to submit to the Court a certificate of
mailing within three business days.
15. On Monday, July 22, 2019, DefendantOklaAG filed a falsified certificate of service with the
District Court by ex parte communication, declaring to
have mailed a copy of its Motion To Dismiss to the
Plaintiff in accordance with the District Court Order
of June 24, 2019.
16. The July 22, 2019 certificate of service en­
tered in court by Defendant-OklaAG was dated June
21, 2019, three days before the June 24, 2019 District
Court Order.

App. 25
17. The certificate of service purports being elec­
tronically signed on June 21, 2019, however documen­
tation submitted to the district court in Smith v. Tulsa
County District Attorney, Case No. CIV-19-426D (W.D.
Okla. July 26, 2019) by Defendant-OklaAG containing
the electronic signature, indicates the contents of the
document was created on July 22, 2019, not June 21,
2019 as declared by Defendant-OklaAG under the
penalties of perjury.
18. 18 U.S. Code § 1519 makes it a federal crime
punishable with up to twenty years in prison to falsify
or make false entry in any record or document with the
intent to impede, obstruct, or influence the proper ad­
ministration of any matter within the jurisdiction of
any department or agency of the United States.
19. On July 26, 2019, U.S. District Judge
DeGuisti granted Defendant-OklaAG’s Motion to Dis­
miss the Plaintiff’s complaint with prejudiced based
on the fraudulent July 22, 2019 certificate of service
filing by Defendant-OklaAG.
20. On Augsut 9, 2019, Plaintiff submitted a let­
ter to the U.S. District Court of Oklahoma Western Dis­
trict Clerk’s office notifying the Court that she still had
not received the motion to dismiss her complaint from
Defendant-OklaAG in accordance to Rule 12 of the
Federal Rules of Civil Procedure.
21. On August 14, 2019, Plaintiff filed a notice
appealing the District Court decision.

App. 26
22. On or about August 14, 2019, Plaintiff began
utilizing Defendant-PacerMonitor’s federal court case
tracking software application available to the general
public.
23. On September 25, 2019, Plaintiff filed her
opening brief with the U.S. Court of Appeals for the
Tenth Circuit alleging Defendant-OklaAG had not
complied with Rule 12 of the Federal Rules of Civil
Procedure and that Defendant-OklaAG had submitted
fabricated evidence in the lower court proceedings to
succeed in having the Plaintiff’s complaint dismissed.
24. On or about October 11, 2019, Plaintiff
signed up for Defendant-PacerMonitor’s Plus Plan ap­
plication service offering for $49.00 per month, $0.15
per page for downloads, and free searching for the pur­
poses of tracking her case then before the Tenth Circuit
Court of Appeals.
25. On October 23,2019, Plaintiff submitted to the
U.S. Court of Appeals for the Tenth Circuit in Smith v.
Tulsa DA her initial motion to compel DefendantOklaAG and Defendant-TulsaDA to produce corrobo­
rating evidence of mailings after Plaintiff learned
Appellees entered a notice of appearance with the
Tenth Circuit without mailing a copy of the notice to
the Plaintiff; the same pattern of behavior exhibited in
the lower court proceedings.
26. On October 25, 2019, Defendant-OklaAG
filed a response brief with the U.S. Court of Appeals for
the Tenth Circuit denying backdating the certificate of
service submitted on July 22, 2019 nearly a month

App. 27
after U.S. District Judge DeGuisti’s June 24, 2019 or­
der, and falsely alleging to have mailed the Plaintiff a
copy of the motion to dismiss her complaint on June
21, 2019, three days before Judge DeGuisti’s order.
27. On October 25, 2019, Plaintiff accessed her
PacerMonitor account to retrieve the certificate of
service docket entry filed by Defendant-OklaAG on
July 22, 2019, however after viewing the docket list in
her case against Defendant-OklaAG and DefendantTulsDA, the July 22, 2019 docket entry was not avail­
able and appeared to have been deleted.
28. On November 1, 2019, Defendant-OklaAG
submitted to the Tenth Circuit, a response to Plain­
tiff’s motion to compel the Appellees to produce corrob­
orating evidence of court filings Appellees purportedly
mailed to Ms. Smith.
29. The November 1, 2019 court filing included
affidavit testimony of Deonna Rowdon, a legal aide
from the Office of the Defendant-OklaAG.
30. Ms. Rowdon’s November 1, 2019 sworn affi­
davit falsely claims the certificate of service dated June
21, 2019, entered by Defendant-OklaAG on July 22,
2019 with the U.S. District Court of Oklahoma Western
District had not been backdated and also purported to
have audit, leggings from June 21,2019 of the mailing.
31. The sole purpose and intent of Ms. Rowdon’s
November 1, 2019 affidavit was to help Mr. Williford
cover-up the fact of having filed fabricated evidence in
the district court.

App. 28
32. 18 U.S Code § 3 makes it a federal crime pun­
ishable with up to 15 years in prison for knowingly as­
sisting an offender avoid punishment for his offense.
33. On November 8,2019, the case administrator
for Chief U.S. District Judge DeGuisti & U.S. District
Judge Wyrick for the U.S. District Court of Oklahoma
Western District, emailed Ms. Smith the July 22, 2019
docket entry attachment, the certificate of service
portable document format (PDF) file containing the
electronic signature of Oklahoma Assistant Attorney
General Jon Williford.
34. On November 15, 2019, Defendant-OklaAG
filed a reply to the Plaintiff’s opposition to DefendantOklaAG’s motion to dismiss her Rule 60 of the Federal
Rules of Civil Procedure to the U.S. District Court of
Oklahoma Northern District in Smith v. Dep’t Pub.
Safety, Case No. CIV-00-35-C,.J. (N.D. Okla. March 1,
2004).
35. On November 20,2019, KFOR 4 News in Ok­
lahoma City reported public declarations by DefendantOklaAG that depicted the Plaintiff in a false light re­
sulting in criticism, damage to her reputation, and
causing significant emotional distress.
36. On November 21,2019, Plaintiff’s information
systems resources determined Defendant-PacerMonitor
internal resources used the PacerMonitor application
to conceal, block, or deny Ms. Smith’s user profile from
accessing the July 22, 2019 docket entry in Smith v.
Tulsa County District Attorney, Case No. CIV-19-426D
(W.D. Okla. July 26, 2019).

App. 29
37. 18 U.S. Code § 1519 makes it a federal crime
punishable with up to twenty years in prison to conceal
documents or tangible objects with the intent to im­
pede or obstruct any matter within the jurisdiction of
any department or agency of the United States.
38. 18 U.S. Code § 371 makes it a federal crime
punishable with up to five years in prison if two or
more persons conspire to commit any offense against
the United States, or to defraud the United States, or
any agency thereof in any manner or for any purpose.
39. On November 22, 2019, Plaintiff filed a mo­
tion in the United States District Court of Oklahoma,
Northern District, requesting a federal judge to order
a United Stated Department of Justice investigation
into evidence implicating Defendant-OklaAG and Defendant-PacerMonitor with obstruction of justice.
40. On December 6, 2019, Defendant-TulsaDA
made public declarations supporting false narratives
perpetuated by Defendant-TulsaDA and DefendantOklaAG damaging to the Plaintiff’s reputation and re­
sulting in public ridicule, significant physical and emo­
tional distress.
FIRST CAUSE OF ACTION
VIOLATION OF 42 U.S.C. § 1983
DEPRIVATION OF CIVIL RIGHTS
41. The Fifth and Fourteenth Amendments to
the U.S. Constitution unambiguously guarantee’s

App. 30
every person due process of law in civil and criminal
matters.
42. The Fourteenth Amendment explicitly pro­
hibits States from depriving its citizen’s “of life, liberty,
or property, without due process of law.”
43. On May 9, 2019, Plaintiff filed a civil action
in the United States District Court for the Western
District of Oklahoma against Defendant-OklaAG,
Defendant-TulsaDA, and the Oklahoma Department
of Public Safety for violation of 42 U.S.C. § 1983 Viola­
tion of Civil Rights Under Color of State Law, Prosecu­
torial Misconduct, Intentional Infliction of Emotional
Distress, and Negligence based on new evidence re­
lated to Smith v. Dep’t Pub. Safety, Case No. CIV-0035-C,.J. (N.D. Okla. March 1, 2004) corroborating
Plaintiff’s claim of being denied the constitutionally
protected right to full and fair opportunity to litigate.
44. The new evidence also implicated the defen­
dants in the case in widespread corruption and coverup regarding the disappearance of a glass salt shaker,
documented on a Defendant-TulsaDA form, as the in­
strument used to sexually assault Ms. Smith with.
45. On June 6, 2019, Defendant-OklaAG, by ex
parte communication, filed a motion to dismiss the
Plaintiff’s complaint with the U.S. District Court of
Oklahoma Western District.
46. On June 21,2019, Plaintiff submitted a letter
to the U.S. District Court of Oklahoma Western Dis­
trict Clerk’s office notifying the Court that she learned

App. 31
Defendant-OklaAG had filed a motion to dismiss her
complaint from watching the news however had not re­
ceived the motion from Defendant-OklaAG in accord­
ance to Rule 12 of the Federal Rules of Civil Procedure.
47. On Monday, June 24,2019, U.S. District Judge
DeGuisti issued an Order instructing DefendantOklaAG to send the Plaintiff a copy of the Motion to
Dismiss and to submit to the court a certificate of mail­
ing within three business days.
48. Defendant-OklaAG did not comply with the
June 24, 2019 District Court Order by submitting to
the court a certificate of mailing by June 27, 2019.
49. On Monday, July 22, 2019, DefendantOklaAG filed a falsified certificate of service with the
District Court by ex parte communication, declaring to
have mailed a copy of its Motion To Dismiss to the
Plaintiff in accordance with the District Court Order
of June 24, 2019.
50. The July 22, 2019 certificate of service en­
tered in court by Defendant-OklaAG was dated June
21, 2019, three days before the June 24, 2019 District
Court Order.
51. The certificate of service purports being elec­
tronically signed on June 21,2019 by Mr. Jon Williford
in the Office of the Defendant-OklaAG.
52. Evidence obtained by the Plaintiff from the
case administrator for Chief U.S. District Judge
DeGuisti & U.S. District Judge Wyrick for the U.S. Dis­
trict Court of Oklahoma Western District, confirm

App. 32
the certificate of service entered on July 22, 2019 by
Defendant-OklaAG was electronically signed on July
22, 2019 and not June 21, 2019.
53. On July 26, 2019, U.S. District Judge
DeGuisti granted Defendant-OklaAG’s Motion to Dis­
miss the Plaintiff’s complaint with prejudiced based
on the fraudulent July 22, 2019 certificate of service
filing by Defendant-OklaAG.
54. Plaintiff was deprived of the constitutionally
protected right to due process of law in Smith v. Tulsa
County District Attorney, Case No. CIV-19-426D (W.D.
Okla. July 26, 2019), as guaranteed by the Fifth and
Fourteenth Amendments as a direct result of the July
22, 2019 falsified certificate of service court filing by
Defendant-OklaAG.
SECOND CAUSE OF ACTION
VIOLATION OF 42 U.S.C. § 1985 CONPIRACY
TO INTERFERE WITH CIVIL RIGHTS
55. On August 14, 2019, Plaintiff filed a notice
appealing the District Court decision.
56. On or about August 14, 2019, Plaintiff began
utilizing Defendant-PacerMonitor’s federal court case
tracking software application available to the general
public.
57. On September 25, 2019, Plaintiff filed her
opening brief with the U.S. Court of Appeals for the
Tenth Circuit alleging Defendant-OklaAG had not

App. 33
complied with Rule 12 of the Federal Rules of Civil Pro­
cedure and that Defendant-OklaAG had submitted
fabricated evidence in the lower court proceedings to
succeed in having the Plaintiff’s complaint dismissed.
58. On or about October 11, 2019, Plaintiff
signed up for Defendant-PacerMonitor’s Plus Plan ap­
plication service offering for $49.00 per month, $0.15
per page for downloads, and free searching for the pur­
poses of tracking her case then before the Tenth Circuit
Court of Appeals.
59. On October 25, 2019, Defendant-OklaAG
filed a response brief with the U.S. Court of Appeals for
the Tenth Circuit denying backdating the certificate
of service submitted on July 22, 2019 nearly a month
after U.S. District Judge DeGuisti’s June 24, 2019 or­
der, and falsely alleging to have mailed the Plaintiff a
copy of the motion to dismiss her complaint on June
21, 2019, three days before Judge DeGuisti’s order.
60. On October 25, 2019, Plaintiff accessed her
PacerMonitor account to retrieve the certificate of ser­
vice docket entry filed by Defendant-OklaAG on July
22, 2019, however after viewing the docket list in her
case against Defendant-OklaAG and DefendantTulsDA, the July 22, 2019 docket entry was not avail­
able and appeared to have been deleted.
61. On November 21, 2019, Plaintiff’s infor­
mation systems resources determined Defendant-PacerMonitor internal resources used the PacerMonitor
application to conceal, block, or deny Ms. Smith’s user
profile from accessing the July 22,2019 docket entry in

App. 34
Smith v. Tulsa County District Attorney, Case No. CIV19-426D (W.D. Okla. July 26, 2019).
62. 18 U.S. Code § 1519 makes it a federal crime
punishable with up to twenty years in prison to conceal
documents or tangible objects with the intent to im­
pede or obstruct any matter within the jurisdiction of
any department or agency of the United States.
63. 18 U.S. Code § 371 makes it a federal crime
punishable with up to five years in prison if two or
more persons conspire to commit any offense against
the United States, or to defraud the United States, or
any agency thereof in any manner or for any purpose.
64. The use of the signature application offering
of Defendant-PacerMonitor blocking, concealing, deny­
ing the Plaintiff access to the July 22, 2019 docket
entry in her case against Defendant-OklaAG and Defendant-TulsaDA, directly benefiting the defendants is
indicative of a relationship, collaboration, and agree­
ment between the Defendants to interfere with the
Plaintiff’s constitutionally protected right to full and
fair opportunity to litigate in the judicial proceedings
currently before the United States Court of Appeal for
the Tenth Circuit in Smith v. Tulsa DA.
THIRD CAUSE OF ACTION
VIOLATION OF 42 U.S.C. § 1985 CONPIRACY
TO INTERFERE WITH CIVIL RIGHTS
65. On October 23,2019, Plaintiff submitted to the
U.S. Court of Appeals for the Tenth Circuit in Smith v.

App. 35
Tulsa DA her initial motion to compel DefendantOklaAG and Defendant-TulsaDA to produce corrobo­
rating evidence of mailings after Plaintiff learned Ap­
pellees entered a notice of appearance with the Tenth
Circuit without mailing a copy of the notice to the
Plaintiff; the same pattern of behavior exhibited in the
lower court proceedings.
66. On November 1, 2019, Defendant-OklaAG
submitted to the Tenth Circuit, a response to Plain­
tiff’s motion to compel the Appellees to produce corrob­
orating evidence of court filings Appellees purportedly
mailed to Ms. Smith.
67. The November 1, 2019 court filing included
affidavit testimony of Deonna Rowdon, a legal aide
from the Office of the Defendant-OklaAG.
68. Ms. Rowdon’s November 1, 2019 sworn affi­
davit falsely claims the certificate of service dated June
21, 2019, entered by Defendant-OklaAG on July 22,
2019 with the U.S. District Court of Oklahoma Western
District had not been backdated and also purported to
have audit loggings from June 21, 2019 of the mailing.
69. The sole purpose and intent of Ms. Rowdon’s
November 1, 2019 affidavit was to help Mr. Williford
cover-up the fact of having filed fabricated evidence in
the district court.
18 U.S. Code § 3 makes it a federal crime
punishable with up to 15 years in prison for knowingly
assisting an offender avoid punishment for his offense.
70.

App. 36
71. 18 U.S. Code § 371 makes it a federal crime
punishable with up to five years in prison if two or
more persons conspire to commit any offense against
the United States, or to defraud the United States, or
any agency thereof in any manner or for any purpose.
72. The actions of Mr. Williford and Ms. Rowdon
individually and collectively interfere with Ms. Smith’s
constitutionally protected right to full and fair oppor­
tunity to litigate in the judicial proceedings currently
before the United States Court of Appeal for the Tenth
Circuit in Smith v. Tulsa DA.
FOURTH CAUSE OF ACTION
CONPIRACY TO DEFAME DENYING PLAINTIFF
CONSTITUTIONAL RIGHT TO LIFE, LIBERTY,
AND PURSUIT OF HAPPINESS
73. On November 20,2019, KFOR 4 News in Ok­
lahoma City reported public declarations by DefendantOklaAG that depicted the Plaintiff in a false light re­
sulting in criticism, damage to her reputation, and
causing significant emotional distress.
74. On December 6, 2019, Defendant-TulsaDA
made public declarations supporting false narratives
perpetuated by Defendant-TulsaDA and DefendantOklaAG for more than two decades, damaging to the
Plaintiff’s reputation and resulting in public ridicule,
significant physical and emotional distress.
75. The December 6, 2019, public comments by
the current Tulsa County District Attorney Steve

App. 37
Kunzweiler attempted to use, the corrupted Grand
Jury proceedings ordered by the District Court of
Tulsa County, State of Oklahoma case number CJ 2004
04931, to undermine and discredit the Plaintiff’s
claims of being raped by instrumentation.
76. The December 6,2019, public declarations by
Defendant-TulsaDA are consistent with false narra­
tives spawned from the 2004 Grand Jury proceedings
and indicative of, inter-agency collaboration between
Defendant-OklaAG and Defendant-TulsaDA damag­
ing to the Plaintiff’s public reputation.
PRAYER FOR RELIEF
Wherefore, Plaintiff respectfully requests that this
Court:
A. Declare the conduct engaged in by Defen­
dants to be in violation of Plaintiff’s civil rights.
B. Declare the Defendants conspired to interfere
with Plaintiff’s civil rights.
C. Find that Plaintiff was the target of more than
two decades of conspiracy by Defendants to discredit
and present Ms. Smith in a false light causing damage
to her public reputation, physical, and mental well-be­
ing.
D. Grant judgment to Plaintiff in the amount of
$7,000,000.00 in compensatory damages, with pre- and
post-judgment interest.

App. 38
E. Grant judgment to Plaintiff in the amount of
$8,300,000,000.00 for punitive damages, with pre- and
post-judgment interest. Punitive damages must be sig­
nificant to provide the proper motivation for corporate
decision-makers and state legislatures to eliminate
cultures of corruption as exhibited by the Defendants.
F. Grant such further relief as the court deems
necessary and proper in the public interest.
G. Grant Plaintiff any costs of this action, includ­
ing reasonable attorney fees, expert witness fees, and
litigation costs.
JURY TRIAL DEMAND
Plaintiff requests a jury trial on all questions of fact
raised in the Complaint.
CERTIFICATION
Under Federal Rule of Civil Procedure 11, by signing
below, I certify to the best of my knowledge, infor­
mation, and belief that this complaint: (1) is not being
presented for an improper purpose, such as to harass,
cause unnecessary delay, or needlessly increase the
cost of litigation; (2) is supported by existing law or by
a non-frivolous argument for extending, modifying, or
reversing existing law; (3) the factual contentions have
evidentiary support or, if specifically so identified, will
likely have evidentiary support after a reasonable op­
portunity for further investigation or discovery; and

i

App. 39
(4) the complaint otherwise complies with the require­
«
ments of Rule 11.
■).

■i

i.

I agree to provide the Clerk’s Office with, any changes
to my address where case-related" papers! may be
served. I understand that my failure to keep a current
address on file'with the Clerk’s Office may.result in the
dismissal of my case.
Respectfully submitted,
t

Dated: 12/16/2019

}

i

‘

-

fv

c

*•

/s/ Pamela Smith ±
Pamela Smith
P.O.-Box 470261
!
. Tulsa, Oklahoma 74147
918.99i.33'i4
pamelasmithfoundation@
vahoolcom *
• %

3

)
i
t

t
i '

\
*

i

t'

1

*

App. 41
Although the volume of information we receive
from concerned members of the public prevents
us from responding individually to every Re­
port, be assured that we will carefully consider
the information you have provided us to deter­
mine whether there is a matter for this Office
to investigate. Should we determine that your
Report raises a matter within the jurisdiction of
this Office to investigate and that further infor­
mation from you is necessary for our investiga­
tion, you will be contacted. This Office does not
resolve individual consumer complaints.
NOTE FOR INTERNATIONAL SUBMISSIONS
We review for any appropriate action all sub­
missions we receive. However, to avoid interfer­
ence with the sovereignty of foreign nations, we
do not respond to or acknowledge submissions
from mailing addresses outside of the United
States.
Does this Report Pertain to an Ongoing Case?
0 Yes

□ No

□ Not Sure

If Yes, Please Provide the Following Case Infor­
mation:
Case Title and Docket Number (if known): Smith
v. Tuslsa Countv District Attorney, docket 19-6123
(Tenth Circuit Courth of Appeals)
Please clearly describe the violation of federal criminal
laws that you would like to bring to our attention.

App. 42
Include as much information as possible; including the
dates, places and nature of incident, and contact infor­
mation for any witnesses (do not send original docu­
ments):
This case involves violations of 18 USC Sec. 1519. 18
USC Sec. 3.18 USC Sec. 1621 and 18 USC Sec. 371.
On 7/22/19. Jon Williford entered a falsified certificate
of service in U.S. District Court Western District of
Oklahoma.
11/2019. Ms. Smith, a customer of PacerMonitor. LLC,
used its software to conceal the falsified certificate
from Smith, to the benefit of Mr. Williford.
On 11/1/19. Deonna Rowdon provided false affidavit
testimony covering up for Mr. Williford's falsified cer­
tificate. after the fact.
Are You a Victim of this Alleged Crime?
0 Yes

□ No

□ Not Sure

Are You Aware of Any Other Victim(s)?
□ Yes

0 No

□ Not Sure

If Yes, Please List Other Victim(s):______________
Are You Represented by an Attorney in this Matter?

□ Yes

0 No

If Yes, Please Provide Attorney Contact info:
Name:
Address:

Phone:_______

App. 43
Have You Filed a Lawsuit Concerning this Matter?
□ Yes

0 No

If Yes, Please Provide the Following Case information:
Case Title and Docket Number:__________________
Name and Address of Court:_____________________
Status of Court Case (pending, dismissed, settled):_____
Have You Previously Filed a Report about this Matter
with this Office or Any Other Federal, State or Local
Agency(s)?
0 Yes

□ No

Contact Person:

If Yes, Date Filed:__________
N/A

Agency:_______________

Status of Previous Report:_______________________
By submitting this form you certify that all of the
statements made in this report (including con­
tinuation pages and addendum) are true com­
plete, and correct, to the best of your knowledge.
You understand that a false statement of a mate­
rial fact is a criminal offense. (18 U.S.C. Section
1001).
Signature: /s/ Pamela Smith

Date: 12/16/2019

IMPORTANT NOTE REGARDING THE
PRESERVATION OF YOUR LEGAL RIGHTS:
Submitting a Report to this Office has no effect
on any statute of limitation that might apply to
any claim you may have. By submitting a Report

App. 44
to this Office, you have not commenced a lawsuit
or other legal proceeding, and this Office has not
vitiated an investigation or lawsuit regarding
the subject of your Report. If you seek to sue for
money or other relief, you should contact a pri­
vate attorney to represent you in court.
Mail this completed report to:
United States Attorney’s Office
Southern District of New York
Attn: Civilian Crime Reports Unit (Criminal Division)
One St. Andrew’s Plaza
New York, NY 10007

App. 45
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
PAMELA SMITH,
Plaintiff,
v.
STATE OF OKLAHOMA,
ex rel., DEPARTMENT
OF PUBLIC SAFETY,

No: 4:00-cv-00035
MOTION TO ORDER
U.S. DEPARTMENT
OF JUSTICE INVESTIGATION

Defendant.
PLAINTIFF’S MOTION TO ORDER U.S. DEPART­
MENT OF JUSTICE INVESTIGATION INTO EVI­
DENCE IMPLICATING THE OKLAHOMA ATTORNEY
GENERAL AND PACERMONITOR. LLC FOR OB­
STRUCTION OF JUSTICE
(Filed Nov. 22, 2019)
The Plaintiff Ms. Pamela Smith now comes pursu­
ant to 18 U.S. Code § 1519, with this Motion To Order
a U.S. Department Of Justice investigation into evi­
dence implicating the Office of the Oklahoma Attorney
General and PacerMonitor, LLC located at 19 West
34th Street, Suite 1000, New York, NY 10001, in ob­
struction of justice with the intent to impede, obstruct,
and influence the proper administration of the matter
before this Court. The evidence brings to, light a small
glimpse into the egregious nature and depth of the
scandal, denying the Plaintiff the right of full and fair
opportunity to litigate her claim.

App. 46
Ms. Smith is a registered user of the PacerMonitor
application, a full-featured platform that is integrated
with the courts data management systems and used
for tracking and researching federal bankruptcy, dis­
trict, and appellate court cases. The application is
uniquely identified by its design and useful screen dis­
plays, and is well utilized throughout the legal commu­
nity.

BACKGROUND
On September 25,2019, the Plaintiff submitted an
opening brief with appendix to the United States Court
of Appeals for the Tenth Circuit, case number 19-6123,
PAMELA SMITH v. STATE OF OKLAHOMA, ex rel.,
TULSA COUNTY DISTRICT ATTORNEY OFFICE;
STATE OF OKLAHOMA, ex rel., DEPARTMENT OF
PUBLIC SAFETY; OKLAHOMA ATTORNEY GEN­
ERAL. It would be through this court filing that the
Plaintiff first revealed her use of the PacerMonitor ap­
plication. (See Exhibit A)
The matter before the Tenth Circuit hinges on the
Oklahoma Attorney General’s Office non-compliance
with Rule 12 of the Federal Rules of Civil Procedure
for failure to respond to the Plaintiff’s Complaint and
then submitted a falsified certificate of service on July
22, 2019 that alleged mailing Ms. Smith its Motion to
Dismiss her Complaint on June 21, 2019, to the U.S.
District Court of Oklahoma for the Western District
purporting compliance with Rule 12.

App. 47
On October 25, 2019, Defendants filed the Re­
spondent’s brief denying non-compliance with Rule 12
and also indicated Ms. Smith’s allegations the Defend­
ants had filed a false certificate of service on July 22,
2019, were unfounded.
While preparing to file a reply brief to the Defen­
dants October 25, 2019 response brief, Smith learned
the July 22, 2019 docket entry was no longer available
to her and appeared to have been removed from the
PacerMonitor application. To the best of Ms. Smith’s
knowledge, any such action in PacerMonitor, would
have originated from the court systems.
On November 8, 2019, Ms. Smith was able to se­
cure the certificate of service (docket entry 8) filed by
Mr. Williford on July 22, 2019, from the U.S. District
Court Western District of Oklahoma. (See Exhibit B-l)
A review of the properties associated with the content
of that filing show that the document was created on
July 22, 2019, not June 21, 2019 as alleged by Mr. Wil­
liford. (See Exhibit B-2)
On November 21, 2019, Ms. Smith would learn
that her inability to access the July 22, 2019 evidence
in PacerMonitor, was directly related to her user pro­
file in PacerMonitor. When Smith is logged in the
PacerMonitor application, the certificate of service
from July 22, 2019 is unavailable and appears to have
been deleted. (See Exhibit C-l) However, when review­
ing the same case, from the same computer device
without being logged in to the PacerMonitor applica­
tion, the certificate of service from July 22, 2019 is

App. 48
clearly visible. (See Exhibit C-2) Test scenarios were
conducted using several computer machines, laptops,
and mobile devices. In each test, when not logged in
the PacerMonitor application, the July 22, 2019, cer­
tificate of service is visible and when logged in the
PacerMonitor application using Ms. Smith’s log in
information, the July 22, 2019 docket entry is una­
vailable indicative of software applications security
features used by systems administrators and infor­
mation technology security professionals to control
which users have access to what objects on a given
platform.
Conclusion
The evidence presented to this Court bring to
light, Mr. Williford falsified a certificate of service on
July 22,2019 and lied to multiple courts including this
Court about the evidence. The evidence presented to
this Court bring to light that functionality features of
the PacerMonitor application were invoked against
Ms. Smith for the sole purpose of impeding the admin­
istration of justice, concealing falsified evidence, and
preventing Ms. Smith from accessing evidence applica­
ble to her case. The evidence presented to this Court
expose the exact same behaviors by the Defendants
that is the basis for the Plaintiff’s Rule 60 Relief from
Judgment that is before this Court.
For the forgoing reasons, the Plaintiff respectfully
requests this Court to order an investigation by the
United States Department of Justice, into evidence

App. 49
implicating the Office of the Oklahoma Attorney Gen­
eral and PacerMonitor, LLC. a Covenant Review com­
pany, for obstruction of justice.
Respectfully submitted,
Dated: 11/22/19

/s/ Pamela Smith
Pamela Smith
P.O. Box 470261
Tulsa, Oklahoma 74147
918.991.3314
pamelasmithfoundation@
vahoo.com

App. 50
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
PAMELA SMITH,
Plaintiff,
v.
STATE OF OKLAHOMA,
ex rel., DEPARTMENT
OF PUBLIC SAFETY,
Defendant.

No: 4:00-cv-00035
PLAINTIFF’S OPPOSI­
TION TO DEFENDANTS
MOTION TO DISMISS
PLAINTIFF’S RULE
60(B) MOTION FOR
RELIEF FROM FINAL
JUDGMENT

PLAINTIFF’S OPPOSITION TO DEFENDANTS
MOTION TO DISMISS PLAINTIFF’S RULE 60(B)
MOTION FOR RELIEF FROM FINAL JUDGMENT
(Filed Nov. 8, 2019)
In its motion to dismiss Plaintiff’s Motion for Re­
lief From Final Judgment pursuant to Rule 60(b)(2)
and Rule 60(b)(3) of the Federal Rules of Civil Proce­
dure, the Defendant overlooks the core purpose of Rule
60(b), congressional intent, and United States Su­
preme Court precedent for the rule.
MATTER BEFORE THE COURT
The Plaintiff, Ms. Pamela Smith seeks relief pur­
suant to Rule 60(b)(2) newly discovered evidence that,
with reasonable diligence, could not have been dis­
covered in time to move for a new trial under Rule
59(b) and pursuant to Rule 60(b)(3) fraud (whether

App. 51
previously called intrinsic or extrinsic), misrepresenta­
tion, or misconduct by an opposing party.
The new evidence before this Court directly chal­
lenges the Defendants claim that Ms. Smith was af­
forded a full and fair opportunity to litigate and brings
to light other key evidence critical to Smith v. Dep’t
Pub. Safety, CIV-00-35-C,J., that was once in the pos­
session of Oklahoma law enforcement, that the Okla­
homa Attorney General alleged was never found.
The Supreme Court has suggested that Rule 60(b)
is inherently meant to allow courts to “accomplish jus­
tice.”1 If there ever was a case that is well suited for
relief from a final judgment, Smith v. Dep’t Pub. Safety,
CIV-00-35-C,J., is that case. However, the Court has
also noted—if they have lent nothing else to our under­
standing of Rule 60(b)(4)—that “Rule 60(b)(4) strikes a
balance between the need for finality ofjudgments and
the importance of ensuring that litigants have a full
and fair opportunity to litigate a dispute.”2
1 See Klapprott v. United States, 335 U.S. 601, 614-15 (1949)
(“In simple English, the language of the ‘other reason’ clause, for
all reasons except the five particularly specified, vests power in
courts adequate to enable them to vacate judgments whenever
such action is appropriate to accomplish justice.”); Griffin v.
Swim-Tech Corp., 722 F.2d 677, 680 (11th Cir. 1984) (“Rule 60(b)
has vested the district courts with the power ‘to vacate judgments
whenever such action is appropriate to accomplish justice, > n
(quoting Klapprott, 335 U.S. at 615)).
2 United Student Aid Funds, Inc. v. Espinosa, 130 S. Ct.
1367,1380 (2010); cf. Stoll v. Gottlieb, 305 U.S. 165, 171-72, 175
(1938) (“Where adversary parties appear, a court must have the
power to determine whether or not it has jurisdiction. . . . After a

App. 52
OPPOSITION TO DEFENDANT’S
FACTUAL BACKGROUND
In Smith v. Dep’t Pub. Safety, CIV-00-35-C,J., Ms.
Smith was not allowed to testify depicting her encoun­
ter with her assailant as rape, nor was she allowed to
use the word “rape” in court. This was a direct result of
the Oklahoma Attorney General claim that state in­
vestigations found no evidence corroborating Plain­
tiff’s claim that she was raped by Mr. Donald Reed
Cochran with a glass salt shaker.
The evidence before this Court negates the false
narrative presented by the Defendant in Smith v. Dep’t
Pub. Safety, CIV-00-35-C,J. and rises to the level of
gross injustice that demands departure from ob­
servance of the doctrine of res judicata.3 Ms. Smith was
not allowed to use the word “rape” in Smith u. Dep’t
Pub. Safety, CIV-00-35-C,J. yet the Tulsa County Dis­
trict Attorney History File Inquiry form (Exhibit A)
clearly indicates “rape by instrumentation”. The form
also indicates the glass salt shaker that was put up the
victim’s vagina was shown to the victim by Oklahoma
Highway Patrol Trooper George Randolf, also negating
the false narrative presented by the Defendant in
Smith v. Dep’t Pub. Safety, CIV-00-35-C,J.

party has his day in court,. . . . [such a] determination [by the
Court] [is] conclusive upon the parties before it. . . .”).
3 See Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S.
238, 244 (1944) “ . . . injustices which, in certain instances, are
deemed sufficiently gross to demand a departure” from adherence
to the doctrine of res judicata.

App. 53
The new evidence (Exhibit A) raises the question,
what happened to the glass salt shaker used to rape
the Plaintiff, that was once in the possession of the De­
fendants and that the Defendants falsely claimed was
not found during its investigations? A reasonable per­
son could conclude that the glass salt shaker used in
the rape of the Plaintiff, with the Plaintiff’s DNA all
over it, was destroyed by the Defendant and replaced
with the false fraudulent narrative presented in Smith
v. Dep’t Pub. Safety, CIV-00-35-C,J. Destruction of evi­
dence is a crime under 18 U.S. Code § 1519, punishable
by a fine, up to 20 years in prison, or both.
In the matter of Smith v. Tulsa County District
Attorney, case number 196123 currently before the
U.S. Court of Appeals for the Tenth Circuit, recent ac­
tivities involving the Oklahoma Attorney General
have brought to light, destruction of evidence and
fraud upon the court related to the proceedings in
Smith v. Tulsa County District Attorney, CIV-19-426-D.
Evidence before the Tenth Circuit shows the De­
fendants did not comply with basic federal rules dur­
ing the lower court proceedings, defaulted pursuant to
Rule 12 of the Federal Rules of Civil Procedure, then
attempted to cover-up the default by filing fabricated
evidence to the lower court while in contempt of a June
24, 2019, District Court Order. A copy of the Plaintiff’s
most recent brief and evidences presented to Tenth
Circuit is submitted to this Court as evidence high­
lighting the ongoing corruption the Plaintiff continues
experiencing related to her pursuit of justice. (See Ex­
hibit B)

App. 54
CONCLUSION
In view of the foregoing, it is respectfully submit­
ted that the motion should be denied.
I declare under penalty of perjury that the forego­
ing is true and correct.
Respectfully submitted,
Dated: 11/8/19

/s/ Pamela Smith
Pamela Smith
P.O. Box 470261
Tulsa, Oklahoma 74147
918.991.3314
pamelasmithfoundation@
vahoo.com

App. 55
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
PAMELA SMITH,
Plaintiff,

)
)
)

v.
)
STATE OF OKLAHOMA )
ex rel. TULSA COUNTY )
DISTRICT ATTORNEY )
)
OFFICE, et al.,
Defendants.

Case No. CIV-19-426-D

)
)

ORDER
Before the Court is Defendants’ Motion to Dismiss
[Doc. No. 4], filed pursuant to Fed. R. Civ. P. 12(b)(6).
Plaintiff Pamela Smith, who is appearing pro se, has
made no timely response to the Motion within the ex­
tended time period provided by the Order of June 24,
2019 [Doc. No. 7]. The Court expressly cautioned Plain­
tiff in the Order of the consequence of failing to re­
spond in a timely manner Under the circumstances,
the Court finds in the exercise of its discretion that
the Motion should be deemed confessed pursuant to
LCvR7.1(g).
Further, for the reasons fully set forth in the Mo­
tion and supporting brief, the Court finds that the
Complaint fails to state a claim upon which relief can
be granted. All of Plaintiff’s claims based on conduct
of Donald Cochran while she was as an inmate of
the Oklahoma Department of Corrections in 1997 and

App. 56
1998 are barred by the final judgment entered in
Smith v. Dep’t Pub. Safety, Case No. CIV-00-35-C, J.
(N.D. Okla. March 1, 2004), aff’d sub nom. Smith v.
Cochran, 182 F. App’x 854 (10th Cir. 2006).1 Also, nei­
ther the State of Oklahoma nor its agencies or depart­
ments are subject to suit under 42 U.S.C. § 1983, and
all of Plaintiff’s claims are time barred by operation of
the applicable statutes of limitations.2 Finally, any individual-capacity claims that might be brought against
the Tulsa County District Attorney or the Oklahoma
Attorney General are barred by prosecutorial immun­
ity.
IT IS THEREFORE ORDERED that Defendants’
Motion to Dismiss [Doc. No. 41 is GRANTED. This ac­
tion is DISMISSED with prejudice to refiling.3 A sepa­
rate judgment of dismissal shall be entered.

1 The Court may properly consider matters subject to judi­
cial notice. See Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551
U.S. 308, 322 (2007); Gee v. Pacheco, 627 F.3d 1178, 1186 (10th
Cir. 2010); Pace v. Swerdlow, 519 F.3d 1067,1073 (10th Cir. 2008).
2 «
[I]f the allegations [of a complaint] show that relief is
barred by the applicable statutes of limitations, the complaint is
subject to dismissal for failure to state a claim.” Vasquez Arroyo
v. Starks, 589 F.3d 1091, 1096-97 (10th Cir. 2009) (internal quo­
tation omitted).
3 <
‘A dismissal with prejudice is appropriate where a com­
plaint fails to state a claim under Rule 12(b)(6) and granting leave
to amend would be futile.” Brereton u Bountiful City Corp., 434
F.3d 1213,1219 (10th Cir. 2006); accord Full Life Hospice, LLC v.
Sebelius, 709 F.3d 1012, 1018 (10th Cir. 2013) (leave to amend
should be freely granted, but amendment may be denied when it
would be futile).

App. 57
IT IS SO ORDERED this 26th day of July, 2019.
/s/ Timothy D. DeGiusti
TIMOTHY D. DeGIUSTI
Chief United States
District Judge

App. 58
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
PAMELA SMITH
Plaintiff,

)
)
)

v.
)
STATE OF OKLAHOMA )
ex rel. TULSA COUNTY )
DISTRICT ATTORNEY )
)
OFFICE, et al.,
Defendants.

Case No. CIV-19-426-D

)
)

ORDER
Before the Court is a To Whom This May Concern”
letter [Doc. No. 6] received from Plaintiff Pamela
Smith, who is appearing in this case pro se. Ordinarily,
this Court does not rule on informal correspondence. A
request for judicial action-must be made by filing a mo­
tion that conforms to the Federal Rules of Civil Proce­
dure and this Court’s Local Civil Rules, which require
a case name, a title, and a clear statement of the relief
sought. A pro se party must “ ‘follow the same rules of
procedure that govern other litigants.’ ” See United States
v. Green, 886 F.3d 1300, 1307 (10th Cir. 2018) (quoting
Garrett v. Selby Connor Maddux & Janer, 425 F.3d 836,
840 (10th Cir. 2005) (internal quotation omitted)).
Liberally construing the letter, however, the Court
understands Plaintiff to say that she somehow learned
of Defendants’ Motion to Dismiss without receiving a
copy of it and she is concerned the Court will dismiss

App. 59
her case without a response. Accepting Plaintiff’s rep­
resentation as true, the Court will direct Defendants
to mail Plaintiff another copy of their Motion.
Pursuant to LCvR7.1(g): “Any motion that is not
opposed within 21 days may, in the discretion of the
court, be deemed confessed.” Under the circumstances,
the Court will, exercise its discretion to lengthen Plain­
tiff’s time in which to respond to the Motion and, on
this one occasion, will sua sponte grant Plaintiff an ex­
tension of time Any future request for additional time
must be made by filing a motion that conforms to
LCVR7.K11).1
IT IS THEREFORE ORDERED that Defendants
are directed to send a copy of their Motion to Dismiss
[Doc. No. 4] to Plaintiff at her address of record, and to
file a certificate of mailing within three business days
from the date of this Order. The deadline for Plaintiff
to file a response to the Motion is extended to July 18,
2019.
IT IS SO ORDERED this 24th day of June, 2019.
/s/ Timothy D. DeGiusti_____
TIMOTHY D. DeGIUSTI
UNITED STATES
DISTRICT JUDGE

1 The Courts’ local rules are available on the internet at:
http://www.okwd.uscourts.gov/wn-content/uploads/local rules 622-2018A.pdf

App. 60
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
PAMELA SMITH, an individual
Plaintiff,

Case No.:
CIV 19 426D

v.

STATE OF OKLAHOMA, ex rel.,
TULSA COUNTY DISTRICT
ATTORNEY OFFICE; STATE
OF OKLAHOMA, ex rel.,
DEPARTMENT OF PUBLIC
SAFETY; OKLAHOMA
ATTORNEY GENERAL.
Defendants.
COMPLAINT
(Filed May 9, 2019)
COMES NOW, the Plaintiff, Pamela Smith, Pro Se,
in the above-styled action and files her Complaint for
Damages and respectfully shows the Court the follow­
ing:
I. JURISDICTION
1.

This action arises under 42 U.S.C. § 1983.

2.

Jurisdiction is founded upon 28 U.S.C. §§ 1331 and
1343.

3.

All Defendant’s actions and omissions that are
alleged herein occurred within Oklahoma County,
State of Oklahoma, and within this judicial

App. 61
district, thus jurisdiction is proper in the Western
District of Oklahoma.
4.

Plaintiff fully complied with 51 O.S. § 151, the Ok­
lahoma Governmental Tort Claims Act. Plaintiffs
filed notice of a claim on April 22, 1999. Plaintiff
received denial of the tort claim on September 1,
1999. An original suit was timely commenced
within 180 days.
II. VENUE

5.

This action properly lies in the Western District of
Oklahoma, pursuant to 28 U.S.C. § 1391(b), be­
cause the claims arose in this judicial district.
III. PARTIES

6.

For the times pertinent herein, Plaintiff Pamela
Smith (“Smith”) was in the custody of the Okla­
homa Department of Corrections. When the acts
and/or omissions alleged herein occurred, Smith
was an inmate at Tulsa Community Correction
Center in Tulsa County, State of Oklahoma.

7.

Defendant Department of Public Safety (“DPS’),
is a department of the State of Oklahoma.

8.

Defendant Tulsa County District Attorney
(TCDA) is a Department of the State of Oklahoma.

9.

Defendant Oklahoma Attorney General is a De­
partment of the State of Oklahoma.

App. 62
IV. FACTS
10. Smith was an inmate at Tulsa Community Correc­
tional Center (“TCCC”) from November 1997 to
August 1998.
11. While at TCCC Smith worked in a janitorial ca­
pacity at the Department of Public Safety (“DPS”),
primarily at the DPS office located at 575 East
36th Street North in Tulsa.
12. Shortly after beginning her job at DPS, Donald
Cochran, a DPS employee, commented to Smith
regarding the size of her breasts. Cochran also told
Smith she needed to do something to prove he
could trust her. Within a few days of making these
comments, Cochran engaged in sexual intercourse
with Smith.
13. Several incidents of sexual intercourse and fellatio
between Cochran and Smith occurred from No­
vember 1997 through January 1998.
14. On or about February 18, 1998, Smith informed
Ed Spencer (“Spencer”), a DPS supervisor, about
Cochran giving her a condom and making sexual
comments to her.
15. Spencer never took action to prevent further inci­
dents of sexual intercourse between Cochran and
Smith.
16. Cochran engaged in sexual intercourse with
Smith several more times from March 1998
through May 1998.
17. In April 1998, Cochran used a glass salt shaker to
achieve intercourse with Smith.

App. 63
18. In August 1998, Smith was transferred back to
Eddie Warrior Correctional Center in Taft, Okla­
homa.
19. On March 3,1999, an information sheet regarding
the rape of Smith by Cochran was denied by the
Tulsa County District Attorney prior to an inves­
tigation performed.
20. In 1999, Department of Public Safety investigator,
Lt. George Randolph, had Smith identify the glass
salt shaker that was utilized by Cochran in April
of 1998.
21. On May 9, 2001 Smith filed a complaint against
Donald Cochran.
22. In 2004, a Grand Jury was impaneled to deter­
mine whether sufficient evidence exist to bring
charges against Donald Cochran.
23. The Honorable Thomas Gillett disqualified the
TCDA and Oklahoma Attorney General Office
from acting in the capacity of legal adviser.
24. Judge Gillert’s order was disregarded by the Ok­
lahoma Attorney General’s office who appointed
Gene Haynes, the acting District Attorney for
Craig, Mayes, and Rogers counties in 2004 to act
as legal adviser to the Grand Jury.
25. When Lt. Randolph was called to testify to the
Grand Jury, he failed to produce the glass salt
shaker.
26. The glass salt shaker that Smith identified in 1999
was never seen again.

App. 64
27. Mr. Haynes did not call any witnesses regarding
the rape of Smith.
28. Smith was not provided medical treatment for the
injuries that occurred in April 1998, from the glass
salt shaker penetrating her vagina.
29. Smith has endured severe physical pain and emo­
tional distress, in addition, Smith has suffered
fear, embarrassment, humiliation, anger, and
mental anguish.
FIRST CAUSE OF ACTION
VIOLATION OF 42 U.S.C. § 1983:
VIOLATION OF CIVIL RIGHTS UNDER
COLOR OF STATE LAW
30. Plaintiff realleges and incorporates paragraphs
1-29 above as if fully set forth herein and further
alleges as follows:
31. Smith was coerced by Cochran, a DPS employee,
to have sexual intercourse.
32. As a U.S. citizen, Smith is entitled to all the rights,
privileges, and immunities secured by the Consti­
tution and the law of the United States.
33. Defendant Department of Public Safety’s em­
ployee Donald Cochran, subjected Smith to consti­
tutional deprivations without justification or
cause, thus violating Smith’s fight to those liber­
ties secured by the Fourth, Fifth, Eighth, and
Fourteenth Amendments to the United States
Constitution.

App. 65
34. The acts and/or omissions of Defendants have
caused Smith to suffer severe and debilitating
emotional distress, physical pain, mental anguish,
and humiliation.
35. The acts and/or omissions of Defendants were will­
ful, wanton, and malicious, amounting to a total
disregard for Smith’s civil rights, thus giving rise
to punitive damages.
36. WHEREFORE, Plaintiff pray this Court to declare
the conduct engaged in by Defendants to be in
violation of Smith’s civil rights, and judgment
against Defendants for compensatory and puni­
tive damages. Plaintiff also pray for prejudgment
interest, an assessment of damages to compensate
for any tax consequences of this judgment, and
the costs of this action, to be taxed against Defen­
dants, and an award of all other proper relief
deemed just and equitable by this Court.
SECOND CAUSE OF ACTION:
PROSECUTORIAL MISCONDUCT
37. Plaintiff realleges and incorporates paragraphs
1-36 above as if fully set forth herein and further
alleges as follows:
38. An information sheet regarding the rape if Smith
by DPS employee Cochran sent to the TCDA was
denied prior to an investigation performed.
39. Tim Harris met with Smith on or about February
14, 2004, to request Smith obtain the glass salt
shaker because he lacked the resources.

App. 66
40. In 2004, the Grand Jury was not fully informed,
nor was all evidence presented, for the Grand Jury
to make an impartial and educated decision.
41. The Attorney General failed to follow Judge
Gillert’s ruling regarding disqualification and ap­
pointed a close member of the District Attorney
Council and accomplice to lead the Grand Jury.
42. WHEREFORE, Plaintiff pray this Court to award
Plaintiff actual, compensatory, and punitive dam­
ages in an amount to be determined at trial, award
Plaintiff her costs, and grant such other relief as
the Court may deem just and proper.
THIRD CAUSE OF ACTION
INTENTIONAL INFLICTION
OF EMOTIONAL DISTRESS
43. Plaintiff realleges and incorporates paragraphs
1-42 above as if fully set forth herein and further
alleges as follows:
44. Donald Cochran’s use of his position of authority
and power over Smith to illicit sexual favors in
violation of 21 O.S. § 1111(7) was extreme and out­
rageous conduct going beyond all possible bounds
of decency.
45. Cochran intentionally and recklessly caused se­
vere emotional distress to Smith beyond that
which any reasonable person could or should be
expected to endure.

App. 67
46. Smith’s emotional distress is so severe she is still
in treatment for the trauma precipitated by
Cochran’s extreme and outrageous conduct.
47. The inaction, acts, and omissions of the DPS,
TCDA, and the Attorney General is also extreme
and outrageous, going beyond all bounds of de­
cency.
48. The intentional and reckless inaction, acts, and
omissions of DPS, TCDA, and the Attorney Gen­
eral caused, and still causes, Smith severe emo­
tional distress beyond that which any reasonable
person can or should be expected to endure.
49. WHEREFORE, Plaintiff pray this Court to award
Plaintiff actual, compensatory, and punitive dam­
ages in an amount to be determined at trial, award
Plaintiff her costs, and grant such other relief as
the Court may deem just and proper.
FOURTH CAUSE OF ACTION
NEGLIGENCE
50. Plaintiff realleges and incorporates paragraphs
1-49 above as if fully set forth herein and further
alleges as follows:
51. The above sets forth a cause of action against DPS,
TCDA, and the Attorney General for Negligence
for refusing to fully investigate the crime against
Smith.
52. The acting Grand Jury legal adviser failed to pre­
sent evidence of the rape of Smith by Donald
Cochran.

App. 68
53. WHEREFORE, Plaintiff pray for this Court to
award Plaintiff actual, compensatory, and punitive
damages in an amount to be determined at trial,
award Plaintiff her costs and grant such other re­
lief as the Court may deem just and proper.
Respectfully submitted,
/s/ Pamela Smith
Pamela Smith
P.O. Box 470261
Tulsa, OK 74147
918-991-3314
PamSmithOk@gmail.com
Pro Se

App. 69
26-CVE-FHM Document 21 Filed 05/0 [Illegible]
Document: 010110345025

Date Filed

DUPLICATE
Court Name: Northern District Oklahoma
Division: 4
Receipt Number: TOK047258
Cashier ID: deross
Transaction Date: 05/06/2020
Payer Name: PAMELA SMITH
NOTICE OF APPEAL/DOCKETING FEE
For: PAMELA SMITH
Amount:
$505.00
CASH
Amt Tendered:

$505.00

Total Due:
Total Tendered:
Change Amt:

$505.00
$505.00
$0.00

20-cv-126-CVE-FHM
“Only when bank clears the check, money order, or
verifies credit of funds is the fee or debt officially paid
or discharged, a $53 fee will be charged for a returned
check.”

App. 70
ructions, Motion to Compel Smith v DPS.doc
ructions, Motion to Compel Smith v DP5.pdf
ructions, Motion to Compel Smith v OPS . „

41 KB Microsoft
136 KB Adobe Ac
135 KB Adobe Ao

rr:

LlV-19-42b-l); Document O.pdf Properties

General PDF
Title:
Author:

Jon VWliford

Subject:
Keywords:

Created:

Monday, July 22, 2019, 2:40:51 PM

Modified:

Friday, November 08, 2019, 4:42:12PM

AppScatton:

Acrobat PDFMaker 11 for Word

PDF Producer:

Adobe PDF library 11,0; modfied using (Text®

Fast Web View: No

%

PDF Version:

1.5

Information on this page reflects the actual contents cf
the Adobe POF Me. This page may differ from other
pages of this property sheet that display mfcrmaton
from the Windows file system.

or

1

Cancel

- »rier '■"lA** t

App. 71

U

a w^
m:

w;

n
j

0
]

mie
- - Jr- ---am
- mm ou.
t«n *m-h

•*”*.-♦*
*r' <*

Oto G«W< -M - »• - «9
SifMlill«n<
- orcLXMcr

(yK

1* - Mil - M»> |
iufE n laraunEMrATtOM

*

o«nii« mifiiNt. a
CM>(^9itn(e?
Ogwftjy- 1>tS*
ci*». tu.»*
toe -Otf cito '
3i« ewi err
otu MUto

eu

*r»»«wrr«rtl
aivniMi
aritopriBi
IW>«k4c
CIMTitorw
» ♦ • *o now orr«g. HecaKa

•a^ w
«to«ti«*l

mt

ffl»|KW|-T

.

1

J

- u

“1

J

1

J

1--------

J

1
J

f****
i7

p*~
yS?

f'

<*^5^

*"!

J

]
1

J

J
]
1

J

39

&rt*Wt2

!I

App. 72
AFFIDAVIT OF DEEONA ROWDEN
STATE OF OKLAHOMA

§
§

COUNTY OF OKLAHOMA

§

1.

I am a Legal Assistant employed by the Okla­
homa Attorney General’s office.

2.

I have been assigned to work on the present
matter since the time it came into our office
in June 2019.

3.

It is one of my job duties and responsibilities
to send out the mailings required to be sent
out.

4.

As part of this duty and requirement, I main­
tain logs of every item of mail I send out.

5.

It is my routine practice and habit to main­
tain written logs of every item I send out in
the U.S. Mail.

6.

I have reviewed these logs in preparation for
signing this Affidavit.

7.

It is my routine practice and habit to mail
items as indicated on the Certificate of Ser­
vice, if such mailing is indicated.

8.

Upon review, and based upon my memory, I
mailed the Appellees’ Motion to Dismiss to
Appellant’s identified address on June 6,
2019.

9.

Upon review, and based upon my memory, I
mailed the Appellees’ Motion to Dismiss to

App. 73
Appellant’s identified address on June 21,
2019. This mailing was done due to the letter
filed by Appellant claiming to not have re­
ceived the earlier June 8, 2019 mailing.
10. Upon review, and based upon my memory, I
mailed the Appellees’ Entry of Appearance to
Appellant’s identified address on August 30,
2019.
11. No mailing, nor any certificate of mailing, has
been backdated or falsified.
FURTHER AFFIANT SAYETH NOT.
/s/ Deeona Rowden
Deeona Rowden
Legal Assistant
Oklahoma Attorney
General’s Office
Subscribed and sworn before me this 1st day of Novem­
ber, 2019.
/s/ Donna G. Hope
Notary Public
My Commission Expires:
1SEAL1

App. 74
U.S. POSTAL
SERVICE

CERTIFICATE
OF MAILING

Affix fee here
in stamps or
MAY BE USED FOR DOMESTIC meter postage
AND INTERNATIONAL MAIL, DOES and post mark.
NOT PROVIDE FOR INSURANCE- Inquire of
Postmaster
POSTMASTER
for current
Received From:
fee.

One piece of ordinary mail ad­
dressed to:

PS Form 3817, January 2001

App. 75
PAMELA SMITH
P. 0. Box 470261
Tulsa, Oklahoma 74147
November 11, 2020
[Northern district of Oklahoma]
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK

(Filed 19, 2020)

Case: 20-5042
Case: 19CV11849
CIV-0126-CVE-FHM
U. S. District Court
Southern District
New York, New York
Case No. CIV-19-426 D

Pamela Smith
Vs.
Pacer Monitor LLC,
Oklahoma Attorney General
Tulsa County District Attorney
Dear Magistrate Judge James L. Cott,
I am Pamela Smith, victim of rape and assault. I
was violated at the Department of Public Safety, 575
East 36st Street North, Tulsa, Oklahoma. I was abused
by a State Driver Examiner by the name of Donald
Reed Cochran, Sr. I was violated so many times by this
rapist, and the state officials ignored Pamela Smith’s
cry for justice for over twenty-three (23) years.
I have petitioned your court with a civil rights
violation lawsuit, suing these litigants above. I am

App. 76
asking for your help to request the Department of Jus­
tice and the FBI to bring a federal investigation on the
state of Oklahoma for abuse of power, destruction of
evidence, such as glass salt shaker, that the victim was
assaulted with, with DNA evidence, tampering with
evidence, tampering with federal witnesses, back da­
ting certificate, (John Wiliford, Assistant Attorney
General) falsifying evidence in the district court,
which is 18 U. S. Code & 3 makes it a federal crime
punishable, with up to 15 years in prison for know­
ingly assisting an offender avoid punishment for his
offense. They destroyed 2 polygraphs that was admin­
istered to the victim, Pamela Smith (October 18,1998
and-January or February of 1999). Medical records,
prison field file totally destroyed. Both were adminis­
tered at Eddie Warrior Correctional Center at Taft, Ok­
lahoma. One was administered by Oklahoma Highway
Patrol. The other one by Department of Correction
(Ken Woodrum), Internal Affairs for Department of
Correctional.
These are the targets of this request for a federal
investigation from Washington D.C. Bureau:
•

Donald Reed Cochran, Sr., Houston, Texas

•

Drew Edmondson, former Attorney General

•

Tim Harris, for district attorney, Tulsa County

•

Kevin Ward, former Department of Public
Safety Director

App. 77
•

Lt. George Randolph #22, Oklahoma Highway
Patrol Investigator. He also retrieved the
glass salt shaker at Department of Public
Safety, 535 East 36 St No.

•

Ron Ward, Department of Corrections Direc­
tor
Ed Spencer, Supervisor for. Department of
Public Safety
Steve Kunzweiler, Tulsa County District At­
torney
Mike Hunter, Attorney General
Governor Brad Henry
Governor Kevin Stitt
OSBI
U. S. Attorney Trent Shore/David O’Malley
Jerrod Leaman, U. S. Attorney, Eastern Dis­
trict, Muskogee, Oklahoma
James Carpenter, former Oklahoma Highway
Patrol Trooper
FBI Paul Kilman
Candance Rowe, victim
Yvonne Sanders (Patrick), grandmother to
Candance
Florida Calloway, mother to Candance
Dr. Steven Hoyer, treated Pamela Smith
Sherry Todd, assistant Attorney General un­
der Drew Edmondson

App. 78
•

Angela Berlin, assistant Attorney General un­
der Drew Edmondson

•

Katie McClain, Esther Vaughn and Carmillia
Clincy, DOC workers that were threatened as
a federal witnesses by the Attorney Gen­
eral’s office, Drew Edmondson, not to come
to federal court in the northern district to
testify.

•

Liz Egan, Tulsa Sex Crime Division

•

Gene Haynes, former district attorney, Claremore, Oklahoma, conducted the miscarriage
of justice grand jury in Tulsa County in De­
cember, 2004. Handpicked by Drew Edmond­
son to conduct grand jury. Drew Edmondson
was recused from any legal advice to the
grand jury.

•

Miller Newman, former state president,
NAACP, McAlester, Oklahoma.

•

Jon Willford, assistant attorney the new
elected attorney general, Mike Hunter

•

Scott Watkins, Department of Public Safety

•

Renee Watkins, former deputy warden, Eddie
Warrior, Taft Oklahoma.

•

Toni Mallory, law enforcement

•

Debbie McHaffey, former warden, Eddie
Warrior, Taft, Oklahoma

•

Lisa Tipton Davis, former assistant attorney
general to Drew Edmondson, represented
Donald Reed Cochran, Sr., threatened federal
witnesses, removed herself off the case,
stated she knew Donald Reed Cockran, Sr.

App. 79
was guilty, removed herself from the case and
became Governor Brad Henry’s personal at­
torney.
/s/ Pamela Smith
Pamela Smith, Victim, Pro-se
Pamela Smith Foundation
My Turning Point Program
P.O. Box 470261
Tulsa, OK 74147
Cc: U. S. Attorney Office
Southern District of New York
Attachment: The intake sheet from the Tulsa
County District Attorney Office delivered by Lt.
George Randolph #22, Oklahoma Highway Patrol
after Pamela Smith, victim, identified the glass
salt shaker (1999).
[Nov 11, 2020
Frances Jordan, Notary Public
My Commission expires 2/28/21
#01001469
[SEAL] ]
[Pamela Smith
P.O. Box 470261
Tulsa, Okla 74147
918-991-3314]

App. 80
CERTIFICATE OF SERVICE
The undersigned certifies that a true copy of the
foregoing pleading was served on each of the parties
hereto by mailing the same to them or to their attor­
neys of record on the
Day of 11/19
2020
/s/ Pamela Smith

App. 81
Filed December 10, 2020
[Northern District
Case # 20-5042
Case # 19cvll89
Case # civ-0126-CVE-FHM]

Pamela Smith
P.O. Box 470261
Tulsa, Oklahoma 74147
918.991.3314
pamelasmithfoundation@
vahoo.com

October 1, 2019
Office of the Governor
Attn: The Honorable J. Kevin Stitt
Oklahoma State Capitol
2300 N Lincoln Blvd.
Oklahoma City, Oklahoma 73105
RE: Request For Outside Independent Special Prosecutor
Dear Governor Stitt:
I am following up with your Office regarding the
matter in PAMELA SMITH v. STATE OF OKLAHOMA,
ex rel., TULSA COUNTY DISTRICT ATTORNEY OF­
FICE; STATE OF OKLAHOMA, ex rel., DEPARTMENT
OF PUBLIC SAFETY; OKLAHOMA ATTORNEY
GENERAL currently before the United States District
Court of Appeals for the Tenth Circuit.
By now you should have received copies of the
opening brief and evidence presented to the Tenth Cir­
cuit outlining the ongoing challenges and difficulties I
continue to experience as a result of ongoing undenia­
ble criminal activity perpetrated by Oklahoma state
agencies including tampering with evidence, perjury,
obstruction of justice, and perverting the course of
justice. As recently as July 22, 2019, the Office of the
Oklahoma Attorney General submitted a fraudulent

App. 82
filing to the United States District Court for the West­
ern District of Oklahoma under penalties of perjury, a
clear violation of federal law.
Such occurrences of injustice and corruption are
not uncommon to me as I have fought such fraud and
dishonesty in the state of Oklahoma for more than 20
years and have reach out numerous times to authori­
ties with investigative jurisdiction for assistance. To
date, the Tulsa County District Attorney, Oklahoma
Attorney General, United States Attorney, and Federal
Bureau of Investigations inside the borders of this
state have proven uninterested and incapable of con­
ducting full, fair, and impartial criminal investigations
regarding any of my complaints.
Therefore, I am officially calling on your Office to
pursue assigning an outside special prosecutor to in­
vestigate these agencies for the corruption related to
the destruction of the glass salt shaker used by a state
employee to sexually assault me with.
In advance, thank you for your time and attention to
this matter.
Regards,
/s/ Pamela Smith
Pamela Smith

